     Department of Homeland Security

     ��������������������������


    FEMA Should Recover $6.1 Million of Public 

Assistance Grant Funds Awarded to Orlando Utilities 

       Commission under Hurricane Frances 





OIG-14-11-D                            December 2013

                                     OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security
                                             Washington, DC 20528 / www.oig.dhs.gov

                                              DEC       3 2013

 MEMORANDUM FOR :




 FROM:




 SUBJECT:                              FEMA Should Recover $6.1 Million of Public Assistance
                                       Grant Funds Awarded to Orlando Utilities Commission
                                       under Hurricane Frances
                                       FEMA Disaster Number 1545-DR-FL
                                       Audit Report Number OIG-14-11-D

 We audited Public Assistance grant funds awarded to the Orlando Utilities Commission, Florida,
 (Utility) {FIPS Code OOO-UT15M-OO). Our audit objective was to determine whether the Utility
 accounted for and expended Federal Emergency Management Agency (FEMA) grant funds
 according to Federal regulations and FEMA guidelines.

 The Utility received a Public Assistance award of $11.6 million from the Florida Department of
 Emergency Management (FDEM), a FEMA grantee, for damages resulting from Hurricane
 Frances, which occurred in September 2004. The award provided 90 percent FEMA funding for
 debris removal activities, emergency protective measures, repair of the electric transmission
 and distribution system, repair/replacement of buildings and equipment, and other disaster-
                                                                                        1
 related activities. The award consisted of six large projects and nine small projects.

 We audited four large projects with awards totaling $11.4 million (see Exhibit, Schedule of
 Projects Audited). The audit covered the period September 3, 2004, to March 15, 2013, during
 which the Utility claimed $11.4 million under the projects reviewed. At the time of our audit,
 the Utility had submitted final claims on project expenditures to FDEM for the four projects in
 our audit scope.

  We conducted this performance audit between January 2013 and August 2013 under the
. authority of the Inspector General Act of 1978, as amended, and according to generally
  accepted government auditing standards. Those standards require that we plan and perform
  the audit to obtain sufficient and appropriate evidence to provide a reasonable basis for our
  findings and conclusions based upon our audit objective. We believe that the evidence


 1
     Federal regulations in effect at the time of Hurricane Frances set the large project threshold at $54,100.



 www.oig.dhs.gov                                                                                 OIG-14-11-D
                            OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security 



obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. To conduct this audit, we applied the statutes, regulations, and FEMA policies and
guidelines in effect at the time of the disaster.

We judgmentally selected and reviewed project costs (generally based on dollar value);
interviewed Utility, FDEM, and FEMA officials; reviewed the Utility procurement policies and
procedures; reviewed applicable Federal regulations and FEMA guidelines; and performed
other procedures considered necessary to accomplish our audit objective. We did not assess
the adequacy of the Utility’s internal controls applicable to its grant activities, because it was
not necessary to accomplish our audit objective. However, we gained an understanding of the
Utility’s method of accounting for disaster-related costs and its policies and procedures for
administering the activities provided for under the FEMA award.

                                                 

                                        RESULTS OF AUDIT 


The Utility’s claim included $6,122,935 for nonemergency contract work that did not meet
Federal procurement requirements and FEMA guidelines. As a result, full and open competition
did not occur and FEMA has no assurance that contract costs were reasonable or that minority
firms, women’s business enterprises, and labor surplus area firms had an opportunity to bid on
the work. These conditions occurred because FDEM did not ensure that subgrantees were
aware of and followed Federal regulations.

Finding A: Contracting Procedures

The Utility did not comply with Federal procurement requirements when awarding two
contracts for nonemergency debris removal and permanent electrical repair work valued at
$6,122,935. Federal procurement regulations at 44 CFR 13.36 required the Utility, among other
things, to—

   •	 Conduct all procurement transactions in a manner providing full and open competition.
      Subgrantees may use noncompetitive procurement under certain circumstances, one of
      which is when the public exigency or emergency will not permit a delay resulting from
      competitive solicitation. (44 CFR 13.36(c)(1) and 44 CFR 13.36(d)(4)(i)(B))

   •	 Perform a cost or price analysis in connection with every procurement action, including
      contract modifications, to determine the reasonableness of the proposed contract price.
      (44 CFR 13.36(f)(1))




www.oig.dhs.gov                              2 	                               OIG-14-11-D

                            OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security 



   •	 Take all necessary affirmative steps to assure the use of minority firms, women’s 

      business enterprises, and labor surplus area firms when possible during the 

      procurement process. (44 CFR 13.36(e)(1)) 


   •	 Maintain records sufficient to detail the significant history of a procurement. These
      records will include, but are not necessarily limited to the following: rationale for the
      method of procurement, selection of contract type, contractor selection or rejection,
      and the basis for the contract price. (44 CFR 13.36(b)(9))

In addition, FEMA’s Public Assistance Guide (FEMA 322, October 1999, p.39) specifies that
contracts “must be of reasonable cost, generally must be competitively bid, and must comply
with Federal, State and local procurement standards.”

FEMA may grant exceptions to Federal procurement requirements to subgrantees on a case-by-
case basis. (44 CFR 13.6(c))

The Utility did not solicit competitive bids or take affirmative steps to use minority firms,
women’s business enterprises, and labor surplus area firms for nonemergency contract work
valued at $6,122,935. Instead, the Utility solicited bids only from contractors that it had used
before the storm or ones that it believed had the requisite knowledge, expertise, and work
force to perform the required work. Table 1 identifies the projects and related scope of work.

                       Table 1: Projects with Non-Competitive Contracts
                                                        FEMA
         Project                                     Category of        Amount
         Number              Scope of Work              Work           Questioned
          2116      Debris Removal                         A             $1,474,619
          3927      Electrical Repairs                     F              4,648,316
          Total                                                          $6,122,935

In addition, the Utility did not have adequate documentation to show that it performed a cost
or price analysis to determine the reasonableness of the contractors’ proposed prices. A cost or
price analysis decreases the likelihood of unreasonably high or low prices, contractor
misinterpretations, and errors in pricing relative to the scope of work. Utility officials said that
they used the scope of work and prices they established with existing contractors to set prices
for the new contractors’ work. However, they could not provide us with documentation to
show how they negotiated the prices with the existing contractors. Without adequate
documentation, we could not validate that the Utility performed a proper cost analysis and that
the prices the Utility paid for the contract work were reasonable. We question the $6,122,935
the Utility claimed for the contract work that did not meet Federal procurement requirements
and FEMA guidelines.



www.oig.dhs.gov                              3	                                OIG-14-11-D

                            OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security 




Utility officials said that the Utility procured the contracts under exigent circumstances and that
its emergency procurement procedures do not require it to consider procurement
opportunities for minority firms, women’s business enterprises, and labor surplus area firms.
However, we disagree that emergency conditions warranted the use of the noncompetitive
contracts in question. Further, subgrantees may use their own procurement procedures, but
those procedures, at minimum, must comply with Federal procurement standards at 44 CFR
13.36(b) through (i).

The Utility restored electrical power to almost all of its customers by September 9, 2004, which
we consider the end of the emergency period. We did not question about $2.6 million in
contract costs the Utility claimed under Project 3927 for emergency restoration of power
during this period. The $6.1 million we question is for debris removal and electrical repair work
that the Utility completed after it restored emergency power to its customers. After such time,
exigent circumstances no longer existed to warrant the use of noncompetitive contracts. The
Utility should have procured such work through open competition, because exigent
circumstances no longer existed to justify the use of noncompetitive contracts. Full and open
competition increases the probability of reasonable pricing from the most qualified contractors,
and helps discourage and prevent favoritism, collusion, fraud, waste, and abuse. It also allows
the opportunity for minority firms, women’s business enterprises, and labor surplus area firms
to participate in federally-funded work. Therefore, we question the $6,122,935 the Utility
claimed for the contract work that did not meet Federal procurement requirements and FEMA
guidelines

Utility Response. Utility officials generally disagreed with our finding. They said that it was
infeasible for the Utility to use a competitive award process because of a shortage of viable
contractors and the public emergency that widespread power outages created after the
disaster. They also said that the emergency did not permit the Utility to use minority firms,
women’s business enterprises, and labor surplus area firms for the required services.

Office of Inspector General Response. As discussed in the body of this finding, we disagree that
emergency circumstances existed to warrant the use of noncompetitive contracts for the
contracts in question. Further, the Utility did not provide us with any evidence to support its
assertion that viable contractors were not available to support a competitive award process.
Finally, Federal regulations required the Utility to consider using minority firms, women’s
business enterprises, and labor surplus area firms when contracting for goods and services
under a Federal grant.




www.oig.dhs.gov                              4                                 OIG-14-11-D

                           OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security 



Finding B: Grant Management

FDEM should have ensured that the Utility was aware of and followed Federal procurement
standards. According to 44 CFR 13.37(a)(2), FDEM, as grantee, is required to ensure that
subgrantees are aware of requirements that Federal regulations impose on them. Further, 44
CFR 13.40(a) requires the grantee to manage the day-to-day operations of subgrant activity and
monitor subgrant activity to ensure compliance with applicable Federal requirements.

For the two projects where we questioned costs, FEMA and FDEM personnel reviewed and
approved the contract costs during the closeout process that took place between January 2006
and July 2009. The closeout file documentation did not indicate that the closeout team
reviewed the contracts for adherence to Federal procurement requirements and FEMA
guidelines, or for cost reasonableness. The closeout team’s procedures focused mainly on
whether the Utility followed its own contracting procedures and whether contract invoices
supported the costs. Therefore, we recommend that FEMA remind FDEM of the requirement to
adequately review costs subgrantees claim for adherence to Federal regulations and FEMA
guidelines.


                                    RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $6,122,935 (Federal share $5,510,642) of ineligible contract
costs the Utility claimed unless FEMA grants the Utility an exception for all or part of the costs
as provided for in 44 CFR 13.6(c) and Section 705(c) of the Robert T. Stafford Disaster Relief and
Emergency Assistance Act, as amended, and determines the costs were reasonable.

Recommendation #2: Instruct FDEM to remind the Utility of the requirement to comply with
Federal procurement standards when acquiring goods and services under a FEMA award.

Recommendation #3: Reemphasize to FDEM the requirement to adequately review costs
subgrantees claim for adherence to Federal regulations and FEMA guidelines.


                    DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with Utility, FDEM, and FEMA officials during our audit. We also
provided a written summary of our findings and recommendations in advance to these officials
and discussed them at exit conferences with Utility officials on August 13, 2013, FDEM officials




www.oig.dhs.gov                              5                                OIG-14-11-D

                           OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 



on August 15, 2013, and FEMA officials on August 20, 2013. We included Utility officials’
comments, where appropriate, in the body of this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive and evaluate your response, we will consider the
recommendations as open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report are David Kimble, Director; Felipe Pubillones, Audit Manager;
Salvador Maldonado-Avila, Auditor-in-Charge; and Larry Jones, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Director, Eastern Regional Office, at (404) 832-6702.




www.oig.dhs.gov                             6                               OIG-14-11-D

                        OFFICE OF INSPECTOR GENERAL 

                             Department of Homeland Security 



                                                                               Exhibit

                             Schedule of Projects Audited


           Project    Category    Amount        Amount           Federal
           Number     Of Work     Awarded      Questioned         Share
            2116         A       $ 3,079,884     $1,474,619       $1,327,157
            2137         A         1,026,204              0                0
            3461         B            87,923               0              0
            3927         F         7,190,613       4,648,316      4,183,485
             Totals              $11,384,624      $6,122,935     $5,510,642




www.oig.dhs.gov                        7                            OIG-14-11-D

                          OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



                                                                                    Appendix


                                     Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Office
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-13-013)

State
Director, Florida Division of Emergency Management
State Auditor, Florida

Subgrantee
Director of Accounting Services, Orlando Utilities Commission

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                            8                               OIG-14-11-D

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
